No. 20-1817
IN THE

Supreme Court of the United States
_________
EZAKI GLICO KABUSHIKI KAISHA, D/B/A EZAKI GLICO
CO., LTD. & EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. & LOTTE
CONFECTIONARY CO. LTD.,
Respondents.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
_________
REPLY BRIEF IN SUPPORT OF CERTIORARI
_________
STEVEN M. LEVITAN
WOMBLE BOND DICKINSON
(US) LLP
1841 Page Mill Road
Suite 200
Palo Alto, CA 94304
KATHERINE B. WELLINGTON
HOGAN LOVELLS US LLP
125 High Street
Suite 2010
Boston, MA 02110

NEAL KUMAR KATYAL
JESSICA L. ELLSWORTH
Counsel of Record
ANNA KURIAN SHAW
PATRICK C. VALENCIA
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
jessica.ellsworth@
hoganlovells.com

Counsel for Petitioners

RULE 29.6 DISCLOSURE STATEMENT
The Rule 29.6 disclosure statement in the petition
for writ of certiorari remains accurate.

(i)

ii
TABLE OF CONTENTS
Page
RULE 29.6 DISCLOSURE STATEMENT ................. i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
ARGUMENT ............................................................... 4
I.

THE CLEAR SPLIT ON THE TEST
FOR TRADE-DRESS
FUNCTIONALITY AFFECTS
COUNTLESS PRODUCT DESIGNS .............. 4

II.

THERE IS A CLEAR SPLIT ON THE
ROLE OF ALTERNATIVE DESIGNS
IN DETERMINING
FUNCTIONALITY .......................................... 8

III. THIS CASE IS AN EXCELLENT
VEHICLE TO ADDRESS TWO
IMPORTANT QUESTIONS .......................... 11
CONCLUSION .......................................................... 13

iii
TABLE OF AUTHORITIES
Page(s)
CASES:
Bodum USA, Inc. v. A Top New Casting
Inc.,
927 F.3d 486 (7th Cir. 2019) ............................ 8, 10
CTB, Inc. v. Hog Slat, Inc.,
954 F.3d 647 (4th Cir. 2020) .................................. 6
Eco Manufacturing LLC v. Honeywell International, Inc.,
357 F.3d 649 (7th Cir. 2003) .................................. 6
Leapers, Inc. v. SMTS, LLC,
879 F.3d 731 (6th Cir. 2018) .................................. 6
McAirlaids, Inc. v. Kimberly-Clark Corp.,
756 F.3d 307 (4th Cir. 2014) ................................ 10
Nora Beverages, Inc. v. Perrier Group of
America, Inc.,
269 F.3d 114 (2d Cir. 2001) ................................... 5
Tools USA & Equip. Co. v. Champ Frame
Straightening Equip. Inc.,
87 F.3d 654 (4th Cir. 1996) .................................... 5

IN THE

Supreme Court of the United States
_________

No. 20-1817
_________
EZAKI GLICO KABUSHIKI KAISHA, D/B/A EZAKI GLICO
CO., LTD. & EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. & LOTTE
CONFECTIONARY CO. LTD.,
Respondents.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
_________
REPLY BRIEF IN SUPPORT OF CERTIORARI
_________
INTRODUCTION
This petition presents two clear splits on important
questions of trade dress law. The first is whether a
design is functional if it is “essential to the use or purpose of the article or if it affects the cost or quality of
the article,” as this Court, nine courts of appeals, and
the U.S. Patent & Trademark Office (PTO) have said,
or if functionality merely means “useful” and “nothing
more,” as the Third Circuit said. The answer is the
former. Most configurations allow the product to be
“useful”; few consumers would purchase a product
that didn’t work. The Pepperidge Farm Milano cookie
and the Hershey’s chocolate bar—like nearly every
(1)

2
snack product—are easy to eat, package, and share.
That does not mean their specific designs are ineligible for trade dress protection.
Lotte ignores the long history of the word “essential”
in the test for trade dress functionality. And Lotte has
no answer to the many courts that expressly reject the
dictionary definition of “functional” the Third Circuit
espoused below. In Lotte’s portrayal, all courts simply
evaluate whether a design feature is “useful.” That is
wrong. The petition cites numerous cases flatly contradicting Lotte’s assertion that “[t]he result would
have been the same in other circuits.” Opp. 1; see, e.g.,
Pet. 23 (reciting cases holding that useful designs—
color on dry cleaning press pad, handles on French
press coffeemakers, roman numerals on watches, color
on ear plugs, and grip-supporting knurling on rifles—
are entitled to trade dress protection if the design is
not essential to the product’s use or purpose). By lowering the bar for functionality to mere usefulness, the
decision below puts trade dress in jeopardy on everything from the Hershey’s kiss to the scissor doors of
the Lamborghini sports car—an issue Lotte does not
even address.
Certiorari review is also warranted to address when
alternative designs create a question of fact on functionality. Lotte disregards the split Glico identified.
As the petition explains, five courts of appeals hold
that when a design does not affect cost or quality, and
is not the central advance claimed in a utility patent,
evidence of alternative designs creates a question of
fact on functionality. See Pet. 26-30. In contrast,
three courts hold that in those circumstances, evidence of alternative designs does not create a question

3
of fact. See id. at 30-32. This longstanding circuit
split has engendered significant confusion.
Although Lotte says (at 1) that the Third Circuit was
not “treading new ground or contradicting any precedent,” the four amicus briefs supporting certiorari refute that view. E.g., American Intellectual Property
Law Association (AIPLA) Br. 4 (“No other circuit has
cast aside the traditional rule.”); International Trademark Association (INTA) Br. 2-3 (“[T]he Third Circuit
consciously failed to follow all of these prior decisions,
as well as the extensive body of law giving rise to and
applying these precedents, in favor of a new test for
functionality that asks only one question: is the product feature for which trademark protection is sought
‘useful.’ ”). These briefs underscore the need for this
Court’s review, emphasizing that the decision below
“essentially ends trademark protection for product
configurations in the Third Circuit” and “places in
jeopardy countless trade dress rights that other federal courts and the USPTO hold protectable.”
Mondelēz Global LLC (Mondelēz) Br. 14; see also Intellectual Property Owners Association (IPO) Br. 2
(“Allowing the Third Circuit’s holding on functionality
that is contrary to well-settled precedent from this
Court to stand would undermine and jeopardize the
settled expectations and investments in the creation
and protection of trade dress rights of IPO members
and others.”).
The Court should grant certiorari on both questions
presented.

4
ARGUMENT
I. THE CLEAR SPLIT ON THE TEST FOR
TRADE-DRESS FUNCTIONALITY AFFECTS
COUNTLESS PRODUCT DESIGNS.
The Third Circuit held that because the Lanham Act
does not define the term “functional,” the court could
jettison as “too narrow” the longstanding functionality
test and instead adopt a dictionary definition. See
Pet. App. 7a, 9a. There is no real question that by
doing so, the Third Circuit departed from this Court’s
40-year-old test for functionality, which asks whether
a product design is essential to the use or purpose of a
product, or affects its cost or quality. See Pet. 2. If the
purpose of a snack food is to be easily eaten and
shared, many snack designs meet that criteria,
demonstrating that Pocky’s design is not essential to
that purpose.
The primary thrust of Lotte’s argument seems to be
that the Inwood functionality test is really equivalent
to the dictionary definition of useful. See Opp. 13-23.
But Lotte does not explain why this Court would have
used the word “essential” if it had no meaning—particularly given that word’s long pedigree in trade
dress cases, see Pet. 21, or how cases like Qualitex
could have come out as they did if the Inwood test was
a longwinded way of saying “useful.” Nor does Lotte
explain why every other circuit applies the Inwood
test, not a dictionary-based test. The Third Circuit is
the only circuit that has expressly rejected Inwood as
the exclusive test for utilitarian functionality—creating a clear split warranting this Court’s attention. See
IPO Br. 8; Mondelēz Br. 3; AIPLA Br. 21.

5
Seeking to downplay that split, Lotte cites decisions
and treatises that employ the words “useful” and “utilitarian” at some point in describing the test for functionality. That does not help Lotte. The Third Circuit
did not use the term “useful” once or twice as a “shorthand” for the Inwood test; it said that anything narrower than a “useful” test “invade[s] the Patent Act’s
domain.’’ Pet. App. 10a; see also id. at 7a (“a feature’s
particular design is functional if it is useful”); id. at 9a
(heading “Functional designs need not be essential,
just useful”). That some cases and treatises occasionally use the word “useful” or “utilitarian” as a shorthand for the Inwood test, rather than repeating that
lengthy standard in every sentence discussing functionality, does not mean those courts reject the Inwood test. To the contrary: Not a single case Lotte
cites rejects the Inwood test in favor of a “useful” and
“nothing more” standard.
For example, in Nora Beverages, Inc. v. Perrier
Group of America, Inc., two sentences before the one
Lotte quotes (at 18), the Second Circuit explained: “A
product’s trade dress is functional where a competitor
will be put at a ‘significant disadvantage’ because the
feature sought to be protected is ‘essential to the use
or purpose’ of the thing or ‘affects [its] cost or quality[.]’ ” 269 F.3d 114, 120 n.4 (2d Cir. 2001) (citation
omitted). That the court later employed the word
“useful” does not suggest a departure from Inwood.
See id.
Lotte does not dispute (at 18) that Tools USA &
Equipment Co. v. Champ Frame Straightening Equipment, Inc., is directly contrary to the Third Circuit’s
position. See 87 F.3d 654, 659 (4th Cir. 1996). Lotte
instead claims that decision is no longer good law, but

6
it is cited repeatedly in CTB, Inc. v. Hog Slat, Inc., as
stating the test for functionality (and CTB itself
quotes the Inwood test). See 954 F.3d 647, 657, 665,
669 (4th Cir. 2020).1
Contrary to Lotte’s assertions (at 19), the Sixth Circuit’s decision in Leapers, Inc. v. SMTS, LLC, demonstrates the split: It expressly applies Inwood and
holds that a design for a knurling pattern on a rifle
scope—which serves a function because it makes the
rifle easier to grip—is not functional as a matter of
law, remanding the case for a jury trial on that issue.
See 879 F.3d 731, 738-739 (6th Cir. 2018) (emphasizing that trademarked pattern was no more effective
than alternatives).
Lotte’s cite (at 20) to Eco Manufacturing LLC v.
Honeywell International, Inc. is likewise unhelpful.
There, the Seventh Circuit applied Inwood to hold
that a product design is functional either “if it is essential to the design or it affects the article’s price or
quality.” 357 F.3d 649, 654-655 (7th Cir. 2003). The
word “useful” appears there as shorthand for “affects
the article’s price or quality,” as the context makes
clear. See id.

1

Lotte tries to paint the Third Circuit’s test as a “more useful”
test, Opp. 18, but that misstates the decision, which expressly
adopted a “useful” and “nothing more” standard. Pet. App. 9a. A
“more useful” test would require comparing a product like Pocky
to alternative snack food configurations and evaluating the additional usefulness to a snack product’s purpose flowing from
Pocky’s specific design. The Third Circuit did nothing of the sort.
In any event, weighing comparative usefulness among product
designs is a task for a fact finder, not a court on summary judgment.

7
Lotte’s discussion of Ninth Circuit case law is particularly telling. Opp. 21-22. The petition walked
through the same three cases and quoted their repeated divergence from the Third Circuit’s approach.
Pet. 17-18 (quoting holdings that “functional” is “a legal term of art” involving “a complicated legal doctrine,” that courts ask whether the design “satisfies
the Inwood Laboratories definition of functionality—
essential to the use or purpose of the article or affects
its cost or quality,” and that whether a design is “essential” is a fact question “for the jury” (citations omitted)).
Lotte’s discussion of the Fifth, Eighth, Eleventh, and
Federal Circuits, and the PTO Manual, similarly ignores how each applies the Inwood test. See Pet. 1519. That omission is particularly striking with respect
to the Federal Circuit, which emphasizes the historical origins of the word “essential” in the test for functionality. See id. at 18, 21.
Lotte next disputes that a split exists (at 25-26)
based on the Third Circuit’s discussion of Glico’s marketing materials.
But the Third Circuit asked
whether those marketing materials showed functionality under its incorrect legal test. Glico has marketed
Pocky as easy to eat and share, not that Pocky’s design
is essential for snack foods. The Fourth and Seventh
Circuits have held that similar marketing materials
create a question of fact for the jury on functionality.
See Pet. 27-28. The Third Circuit’s approach puts a
snack product’s trade dress in jeopardy anytime the
manufacturer advertises the product as easy to eat or
share. That cannot be the law; many snacks are advertised along similar lines.

8
Lotte falls back on claiming there is only an intracircuit split. Not so. Prior Third Circuit cases applied
the Inwood test without holding it was the exclusive
test for utilitarian functionality. The decision below
concludes it is not.
Finally, Lotte claims that the Third Circuit did not
adopt a “useful” and “nothing more” standard for functionality. See Opp. 14-15. That is directly contrary to
the opinion, which takes issue with Glico’s reliance on
the Inwood test’s use of the word “essential.” See Pet.
App. 11a (criticizing Glico for “repeat[ing] ‘essential’
more than four dozen times” in its brief).2 There is a
clear split, as multiple amici recognize. See supra p. 3.
II. THERE IS A CLEAR SPLIT ON THE ROLE OF
ALTERNATIVE DESIGNS IN DETERMINING
FUNCTIONALITY.
Lotte does not dispute that the Fifth and Sixth Circuits exclude consideration of alternative designs
from the functionality inquiry. See Pet. 31-32.
The Second, Fourth, Seventh, Ninth, and Federal
Circuits expressly consider such evidence. See id. at
26-30. In these circuits, where a design does not affect
cost or quality (under Inwood), and where the design
2

As discussed below, whether a design works better than alternative designs is relevant when determining whether the design
is essential. Lotte wrongly equates (at 15) “working better” with
whether certain product characteristics are useful, not the specific design of the product. The question is not, using Bodum as
an example, “does a coffee press ‘work better’ with a handle?”,
but rather “does a specific handle design offer some extra utilitarian advantage not offered by other handles that makes the
design an essential product feature?” See C.A. Oral Arg. Tr. 24,
43; Bodum USA, Inc. v. A Top New Casting, Inc., 927 F.3d 486,
493-494 (7th Cir. 2019).

9
is not the central advance of a utility patent (under
TrafFix), the presence of alternative designs creates a
question of fact on functionality. That makes sense:
There are multiple ways to establish functionality, including by showing that a design makes a product less
expensive to produce or higher quality or is the central
advance claimed in a utility patent. See Pet. 2. Absent such evidence, the question becomes whether a
design is “essential” to the product’s use or purpose.
As INTA explains, this inquiry often “require[s] consideration of whether alternatives make the feature
non-essential.” INTA Br. 11-12. That is why these circuits hold that when a design does not affect cost or
quality and is not the central advance of a utility patent, alternative designs create a question of fact on
functionality. See Pet. 26-30.
The Third Circuit broke with that majority approach. It did not hold that Pocky’s design affects its
cost or quality or that the design is the central advance of a utility patent. See Pet. App. 17a-18a. Yet
the court nevertheless held that Glico’s evidence of alternative designs for snack foods, including many
chocolate-plus-cookie combinations, did not create a
fact question on functionality. That puts the Third
Circuit in the same camp as the Fifth and Sixth Circuits.
Lotte’s response does nothing to contradict the split.
It merely asserts that “no circuit has held that the
mere existence of alternative design evidence always
suffices to create an issue of fact on functionality.”
Opp. 26 (capitalization omitted). That is not Glico’s
position. Glico’s position is that in the circumstances
here—where a design does not affect cost or quality
and is not the central advance of a utility patent—five

10
circuits hold that evidence of alternative designs creates a fact question for the jury. Lotte’s failure to even
discuss the split that Glico identified demonstrates
that it has no response.
Lotte’s next argument is that where a manufacturer
has advertised its product design as useful, alternative designs do not create a question of fact. Opp. 25.
As the petition explains, however, the Fourth and Seventh Circuits hold that such advertising does not establish that the product is functional as a matter of
law. See, e.g., McAirlaids, Inc. v. Kimberly-Clark
Corp., 756 F.3d 307, 313-314 (4th Cir. 2014); Bodum,
927 F.3d at 493-494.3 It merely means that there is a
question of fact; the jury’s role is then to weigh all the
evidence. See Pet. 27-28. That is yet another way the
Third Circuit departed from the majority rule.4
At a minimum, there is significant confusion among
the circuits regarding the role of alternative designs.
This issue is crucial for trade dress owners. As INTA
explains, demonstrating non-functionality “can best
3

Lotte’s description of Bodum is wrong. Opp. 29. There, the
company expressly advertised its product as “functional” and
“function-driven.” Bodum, 927 F.3d at 493. The Seventh Circuit
nevertheless found that because “Bodum’s advertising * * *
never claimed any of its design features worked better than other
options,” “a reasonable jury could weigh this evidence against a
finding of functionality in the legal trade dress sense.” Id. (emphasis added).
4

In the district court, Glico submitted two reports by confectionary experts describing the use or purpose of snack foods, which
concluded that Pocky’s design is not functional—in part because
consumers enjoy many snack foods that are fully covered in chocolate (such as the Kit-Kat bar). See Glico C.A. Br. 39-41. Lotte
is wrong to suggest (at 28) that there are no disputed issues of
fact for trial with respect to the functionality of Pocky’s design.

11
be accomplished in many cases through consideration
of the alternatives available to competitors” because
“the question of whether something works better in a
given shape implies ‘better than what?’ ” INTA Br.
12. Two circuits flatly reject such evidence, the Third
Circuit rejects such evidence even in the circumstances here, and five other circuits hold that such evidence allows a case to reach the jury. This is a crucial
issue that often determines whether a trade dress
holder is entitled to a trial.
III. THIS CASE IS AN EXCELLENT VEHICLE TO
ADDRESS TWO IMPORTANT QUESTIONS.
Both questions presented were squarely presented
and passed on below. See Pet. App. 11a, 17a. Both
are outcome-determinative: Pocky’s design is not essential to the use or purpose of a snack product; there
are many other ways to design a snack product that is
easy to eat, package, and share. The test that applies
thus determines whether Glico is entitled to a trial on
functionality.
Lotte’s discussion (at 34) of affirmative defenses is
off-base; those defenses are unrelated to the questions
presented, are not before this Court, and were not addressed by the district court or the Third Circuit. 5
Lotte’s reliance (at 33) on the district court opinion
fares no better; the district court applied the same
mistaken approach to alternative designs, and not
even the Third Circuit found that Pocky’s design is
somehow “essential” to the purpose of snack products.
Both questions presented are also immensely important. “In departing from more than a century of
5

These defenses are also exceptionally weak on the merits. See,
e.g., Glico C.A. Br. 14.

12
precedent, the Third Circuit disrupts the settled expectations of parties that have pursued and obtained
trade dress registrations for product features and
transacted business with the understanding that such
features are protected.” INTA Br. 12. The decision
creates “tremendous ambiguity and uncertainty for
trade dress owners who market and sell their products nationally.” Mondelēz Br. 14. Its “overly simplistic ‘usefulness’ standard of functionality is especially
pernicious for trade dress configuration among food
and beverage products because, by necessity, these
items must be handled and consumed in portions or
pieces.” Id. at 17. And it “will allow accused infringers to forum shop and sue in the Third Circuit.”
AIPLA Br. 5. The Court should grant certiorari to address these significant concerns and restore uniformity in trade dress law.

13
CONCLUSION
For the foregoing reasons and those in the petition,
the Court should grant certiorari.
Respectfully submitted,
STEVEN M. LEVITAN
WOMBLE BOND DICKINSON
(US) LLP
1841 Page Mill Road
Suite 200
Palo Alto, CA 94304
KATHERINE B.
WELLINGTON
HOGAN LOVELLS US LLP
125 High Street
Suite 2010
Boston, MA 02110

NEAL KUMAR KATYAL
JESSICA L. ELLSWORTH
Counsel of Record
ANNA KURIAN SHAW
PATRICK C. VALENCIA
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
jessica.ellsworth@
hoganlovells.com

Counsel for Petitioners
OCTOBER 2021

